SoFi Credit Card Terms of Offer
Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for
Purchases
Annual Percentage
Rate (APR) for
Balance Transfers
Annual Percentage
Rate (APR) for Cash
Advances
How to Avoid Paying
Interest on
Purchases

Minimum Interest
Charge
For Credit Card Tips
from the Consumer
Financial Protection
Bureau

The standard variable APR for purchases is 12.99% to 24.99%
based on your creditworthiness. Your APR will vary with the market
based on the Prime Rate.
12.99% to 24.99%, based on your creditworthiness. Your APR will
vary with the market based on the Prime Rate. SoFi is currently
accepting Balance Transfers from recipients of promotional offers
only. We will inform you when this feature is widely available.
26.99% This APR will vary with the market based on the Prime Rate.

Your due date is 25 days after the close of each billing cycle. We will
not charge you interest on purchases made during the most recent
billing cycle if you pay your entire balance (adjusted for any financing
plan, if applicable) in full on or before the due date each month. We
will begin charging interest on cash advances and balance transfers
on the transaction date.
If you are charged interest, the charge will be no less than $1.00
To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees


Balance
Transfer Fee
 Cash Advance
Fee
Penalty Fees
 Late Payment
Fee
 Returned
Payment Fee



The greater of $10 or 5% of the balance transfer



The greater of $10 or 5% of the cash advance



Up to $39



Up to $39

How We Will Calculate Your Balance: We use the “daily balance” method including new
transactions, to calculate the daily balance on which we will charge interest.
Variable Rates: Your Daily Periodic Rate(s) and corresponding Annual Percentage Rate(s) will
change if the Prime Rate changes. If the Daily Periodic Rate(s) and corresponding Annual
Percentage Rate(s) increase, your interest charges will increase, and your minimum payment
will be greater. Complete details regarding how the variable rate is determined are set forth in
the Cardholder Agreement.
Payment Allocation: We decide how to apply your payment, up to the minimum payment, to
the balances on your account. We may apply the minimum payment first to interest charges,
then to the balances with the lowest APR and then to Balances with higher APRs.
If you pay more than the Minimum Payment, we’ll apply the amount over the Minimum
Payment first to the Balance with the highest APR, then to the Balance with the next highest
APR, and so on, except as otherwise required by applicable law.
SoFi Card Terms & Conditions
The SoFi Card Account is issued by The Bank of Missouri (“Bank”, “we”, “us”, or “our”). By
submitting this application, you request that we establish a card account (the “SoFi Credit
Card Account”) for you and any authorized users you have designated. You agree that all
information provided in this application must be verifiable and accurate. The SoFi Credit
Card Account will be governed by the terms of the cardholder agreement (“Cardholder
Agreement”) which will be delivered by or provided when the SoFi Credit Card Account is
issued.
Your eligibility for a SoFi Credit Card Account or a subsequently offered product or service is
subject to the final determination by The Bank of Missouri, as issuer. Please allow thirty (30)
from date of submission to process your application.
You must be at least 18 years of age (or of legal age in your state of residence). The card offer
referenced in this communication is only available to individuals who reside in the United
States. This communication is not and should not be construed as, an offer to individuals
outside of the United States.
Identity Verification
To help the government fight the funding of terrorism and money laundering activities,
federal law requires all financial institutions to obtain, verify, and record information that
identifies each person who opens a SoFi Credit Card Account. This means that we will ask
for your name, address, date of birth, and other information that will allow us to identify
you when you open a SoFi Credit Card Account. We may also ask to see your driver's license
or other identifying documents; and obtain identification information about you or any
authorized user you add to your SoFi Credit Card Account.

Credit Reports
By clicking the “Agree and Submit” button below, you authorize us to request a copy of
your credit report from one or more consumer agencies. This is a hard credit pull which may
affect your credit score. You understand that after evaluating your completed application
and credit report we may determine not to offer credit to you.
You authorize us to request credit reports and other information about you from consumer
reporting agencies and other sources, for such purposes as: (a) determining whether to
issue you a SoFi Credit Card Account, (b) administering, reviewing and renewing the SoFi
Card Account, (c) credit line increases or decreases, (d) collection and other servicing of
the SoFi Credit Card Account, (e) offering other products, (f) services, and (g) for any other
uses permitted by law. We may report negative information about your SoFi Credit Card
Account payment history, like delinquencies, to consumer reporting agencies.
Cardholder Agreement
If you are approved for a SoFi Credit Card Account, you'll receive the Cardholder
Agreement. We strongly advise you to read the Cardholder Agreement before completing
this application. The terms of the Cardholder Agreement will take effect once you use your
SoFi Credit Card Account. We have the right to make changes to the terms of your SoFi
Credit Card Account (including rates and fees) in accordance with the Cardholder
Agreement.
In New York, this Agreement begins on the first date that you sign a sales slip or
memorandum evidencing the purchase of goods or services.
Credit Eligibility
To receive a SoFi Credit Card Account, you must meet certain applicable criteria bearing on
creditworthiness.
Your revolving credit limit may be determined based on the following:
● Your annual salary and wages
● Any other annual income
● A review of your debt, including the debt listed on your credit report
● A review of your credit history and other factors deemed relevant by the issuer
We’ll inform you of your revolving credit limit when you’re approved for your SoFi Credit
Card Account. Some credit limits may be as low as $1,000.
Important Information About Adding an Authorized User

Before adding an authorized user to your SoFi Credit Card Account you should know that:
● You're responsible for all charges made to your SoFi Credit Card Account by the
authorized user
● Authorized users have access to your SoFi Credit Card Account information
● Before adding an authorized user, you must first let them know that we may report
SoFi Credit Card Account performance to the credit reporting agencies in the
authorized user's name
If we ask for information about the authorized user, you must obtain their permission to
share their information with us and for us to share it as allowed by applicable law.
Additional Information
Any benefit, reward, service or feature offered in connection with your SoFi Credit Card
Account may change or be discontinued at any time for any reason, except as otherwise
expressly indicated. We are not responsible for products and services offered by other
companies.
SoFi Credit Card Rewards Program
● With the SoFi Credit Card, you can earn rewards points for purchases made using
your card, and you can redeem those points for statement credits, rewards offered
through the SoFi Member Rewards Program, or other rewards offered from time to
time. More details on the SoFi Credit Card Rewards Program can be found here.
SoFi Member Rewards Program
● As a SoFi Member, you can earn points by using features across SoFi products that
are designed to help you Get Your Money Right. Points can be redeemed for credits
to your SoFi Invest, Money, Personal Loan, and Student Loan Refinance accounts.
More details on the SoFi Member Rewards Program can be found here.
Mastercard World Elite Benefits
● You are also eligible for more rewards including cash back, points, and more through
the Mastercard World Elite Benefits program when shopping with eligible
merchants. More details on the Mastercard World Elite Benefits program can be
found here
Fraud, Misuse, Abuse, or Suspicious Activity
If we see evidence of fraud, misuse, abuse, or suspicious activity, we'll investigate and, if we
determine that fraud, misuse or abuse has occurred, we may take action against you. This

action may include, without limitation, and without prior notice:
● Taking away the SoFi Points you earned because of fraud, misuse, or abuse
● Suspending or closing your SoFi Credit Card Account
● Taking legal action to recover our monetary losses, including litigation costs and
damages
Some examples of fraud, misuse, abuse and suspicious activity include:
● Using your SoFi Credit Card Account in an abusive manner for the primary purpose
of acquiring SoFi Points
● Using your SoFi Credit Card Account other than primarily for personal, consumer or
household purposes
Special Notices
California Residents: If married, you may apply for a separate account.
Delaware Residents: Service charges not in excess of those permitted by law will be charged
on the outstanding balances from month to month.
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit
equally available to all credit worthy customers, and that credit reporting agencies maintain
separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law.
Wisconsin Residents: If you are applying for individual credit or joint credit with someone
other than your spouse, and your spouse also lives in Wisconsin, combine your financial
information with your spouse’s financial information. No provision of any marital property
agreement, unilateral statement under Section 766.59 of the Wisconsin statutes or court
order under section 766.70 adversely affects the interest of the lender, unless the lender,
prior to the time credit is granted, is furnished a copy of the agreement, statement of
decree or has actual knowledge of the adverse provision when the obligation to the lender
is incurred. If married, you understand that your lender must inform your spouse if a credit
account is opened for you.

[Agree and Submit]

